OIG Investigative Reports, Waterloo Man Pleads Guilty To Financial Aid Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Department of Justice
United States Attorney's Office
Northern District of Iowa
FOR IMMEDIATE RELEASE:
Contact: Peter Deegan
December 22, 2011
Waterloo Man Pleads Guilty To Financial Aid Fraud
A man who defraued the U.S. Department of Education out of at least $62,000   pled guilty on December 21, 2011, in federal court in Cedar Rapids.
Roy Lee Turner, III, age 31, from Waterloo, Iowa, was convicted of one count   of financial aid fraud.
In a plea agreement, Turner admitted that, between about January 2006 and   July 2007, he participated in a scheme to fraudulently obtain federal student   loan funds. As part of the scheme, Turner and others registered for classes at   Kirkwood Community College in Cedar Rapids, Iowa, and applied for federal   financial aid to pay for the classes and other educational expenses. Turner and   others applied for the federal student aid intending to use the funds for   non-educational purposes. Financial aid funds that were not used by Kirkwood for   tuition and fees were forwarded to Turner and others in the form of checks.   Turner and others used the proceeds from the checks for their own,   non-educational, purposes. Over the course of the scheme, Turner and others   fraudulently caused the U.S. Department of Education to issue at least $62,000   in student aid principal.
Sentencing before United States District Court Chief Judge Linda R. Reade   will be set after a presentence report is prepared. Turner remains free on bond   previously set pending sentencing. Turner faces a possible maximum sentence of 5   years’ imprisonment, a $250,000 fine, a $100 special assessment, and 3 years of   supervised release following any imprisonment.
The case is being prosecuted by Assistant United States Attorney Peter Deegan   and was investigated by the United States Department of Education.
Court file information is available at   https://ecf.iand.uscourts.gov/cgi-bin/login.pl. The case file number is CR   11-152 LRR.
# # # #
Top
Printable view
Last Modified: 01/12/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov